No. 19-223

In The

Supreme Court of the United States
♦
JANICE SMYTH,
Petitioner,
v.
CONSERVATION COMMISSION OF FALMOUTH, ET AL.,
Respondents.
♦
On Petition for Writ of Certiorari to the Court of
Appeals for the Commonwealth of Massachusetts

♦
BRIEF OF MOUNTAIN STATES LEGAL
FOUNDATION AND CATO INSTITUTE AS AMICI
CURIAE IN SUPPORT OF PETITIONER

♦
Ilya Shapiro
Trevor Burrus
Cato Institute
1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

September 18, 2019

Cristen Wohlgemuth
Counsel of Record
David C. McDonald
Mountain States Legal
Foundation
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
dmcdonald@mslegal.org
Counsel for Amicus Curiae

i
QUESTIONS PRESENTED
Petitioner frames the first of her questions
presented as whether the loss of all developmental use
of property and a 91.5% decline in its value is a
sufficient “economic impact” to support a regulatory
takings claim under Penn Central.
Amici address the question of whether the loss of
all developmental use of property and a 91.5% decline
in its value supports a regulatory takings claim, but
propose that Lucas, rather than Penn Central,
controls the inquiry.

ii
TABLE OF CONTENTS

Page

QUESTIONS PRESENTED ............................

i

TABLE OF AUTHORITIES ............................

iii

IDENTITY AND INTEREST OF
AMICI CURIAE ...............................................

1

BACKGROUND AND INTRODUCTION .......

2

SUMMARY OF ARGUMENT..........................

6

ARGUMENT ....................................................

8

REASONS FOR GRANTING THE
PETITION ........................................................

8

I.

LOWER
COURTS
HAVE
MISAPPLIED
THIS
COURT’S
REGULATORY
TAKINGS
JURISPRUDENCE TO DEPRIVE
PROPERTY OWNERS OF JUST
COMPENSATION ...................................

8

THIS CASE SHOULD BE ANALYZED
AS A TOTAL TAKING UNDER
LUCAS .....................................................

10

A.

Total Takings Under Lucas .............

10

B.

Application of Lucas to This Case ...

13

CONCLUSION .................................................

15

II.

iii
TABLE OF AUTHORITIES

Page

CASES
Barth v. City of Peabody, No. 15-13794,
2018 WL 1567606 (D. Mass. Mar. 30, 2018) ...

9

Gove v. Zoning Bd. Of Appeals of Chatham,
831 N.E.2d 865 (Mass. 2005) ...........................

9

Loretto v. Teleprompter Manhattan CATV
Corp., 458 U.S. 419 (1982) ...............................

2

Lucas v. South Carolina Coastal Council,
404 S.E. 2d 895 (S.C. 1991) .............................

11

Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992) ........................................ passim
Miskowiec v. City of Oak Grove, No. A04-82,
2004 WL 2521209 (Minn. Ct. App. Nov. 9,
2004) .................................................................

9

Palazzolo v. Rhode Island, 533 U.S. 606
(2001) ................................................................

6, 13

Penn Central Transportation Co. v. City of
New York, 438 U.S. 104 (1978) ........................ passim
OTHER AUTHORITIES
1 E. COKE, INSTITUTES, ch. 1, § 1 (1st Am.
ed. 1812) ...........................................................

12

iv
Calvert G. Chipchase, From Grand Central
to the Sierras: What Do We Do With
Investment-Backed Expectations in Partial
Regulatory Takings?, 23 VA. ENVTL. L.J. 43
(2004) ................................................................ 13–14
J. David Breemer, Of Nominal Value: The
Impact of Tahoe-Sierra on Lucas and the
Fundamental Right to Use Private
Property, 33 ENVTL. L. REP. 10331 (2003) ....... 12, 14
John Mangin, The New Exclusionary
Zoning, 25 STAN. L. & POL’Y REV. 91 (2014) ....

10

1
IDENTITY AND INTEREST OF
AMICI CURIAE 1
Mountain States Legal Foundation (“MSLF”) is a
nonprofit, public-interest legal foundation organized
under the laws of the State of Colorado. MSLF is
dedicated to bringing before the courts issues vital to
the defense and preservation of individual liberties,
the right to own and use property, the free enterprise
system, and limited and ethical government. Since its
creation in 1977, MSLF attorneys have been involved
in numerous cases seeking to protect Americans’
property rights from unreasonable government
interference.
The Cato Institute is a nonpartisan think tank
dedicated to individual liberty, free markets, and
limited government. Cato’s Robert A. Levy Center for
Constitutional Studies promotes the principles of
constitutionalism that are the foundation of liberty.
To those ends, Cato conducts conferences and
publishes books, studies, and the annual Cato
Supreme Court Review.
Because the decision below presents an imminent
threat to the constitutional principles for which amici
stand, amici respectfully submit this brief in support
of petitioner and urge the Court to grant the petition.
Pursuant to Supreme Court Rule 37.2(a), notice of intent to file
this brief was timely received by counsel of record for all parties;
all parties have consented to this filing. Further, no counsel for a
party authored this brief in whole or in part, and no person or
entity, other than amici, their members, or their counsel, funded
its preparation or submission.

1

2
♦
BACKGROUND AND INTRODUCTION
What does it mean for the government to “take”
private property for public use? It obviously covers the
paradigmatic example of using eminent domain to
condemn and seize private land, as well as the
permanent physical occupation of property. See
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419, 426 (1982). These are certainly the types of
activities James Madison and the other Framers had
in mind while drafting what would become the
Takings Clause. Not foreseeing the dramatic
expansion of administrative law and local regulations
that would occur over the course of the 20th Century,
however, they had no conception of what has come to
be known as regulatory takings, and so we are left
with little direct guidance on how the Constitution
applies to regulatory restrictions on property that go
beyond the sort of anti-nuisance rules in existence in
the late 18th Century. This Court and others have
now spent nearly a century trying to tackle the
regulatory takings question, coming up with a series
of rules for different situations.
Janice Smyth owns an unimproved lot in
Falmouth, Massachusetts. The property lies within a
coastal subdivision known as Wild Harbour Estates,
which contains approximately 174 lots, almost all of
which have been developed. The lots adjacent to Mrs.
Smyth’s contain single-family residences. Mrs.
Smyth’s lot is zoned for residential use and is similar
in size to surrounding developed lots.

3
Mrs. Smyth’s parents purchased the subject lot in
1975 for $49,000 (more than $200,000 in 2019 dollars),
intending to one day build a retirement home there.
At the time of the purchase, the lot was fully
developable for that purpose. The wetlands
regulations at issue in this case were not enacted until
1989—nearly fifteen years later.
The Smyth family lot has been taxed by Falmouth
as a “prime” building site for nearly forty years, and
the Smyth family continued to make up-to-date
payments on these premium-level taxes to ensure
they could eventually develop the lot. Unfortunately,
Mrs. Smyth’s parents passed away before they could
build their retirement home, and the lot passed to
Mrs. Smyth. Soon after, she began to pursue plans to
develop the lot with a three-bedroom dwelling, a stateof-the-art “de-nitrifying” septic system, a driveway,
and landscaping consisting of native plants, all
consistent with surrounding development. Between
2006 and 2012, Mrs. Smyth paid $70,000 to various
professionals to prepare plans and applications.
Located in a coastal community, Mrs. Smyth’s lot
is located near several environmental features that
have caused the Town of Falmouth to enact certain
development restrictions. A salt marsh lies to the west
of the subdivision and the mid-section of Mrs. Smyth’s
lot contains a non-eroding “coastal bank.” This
“coastal bank” separates lower areas of the property
that are closer to the salt marsh and occasional storm
surges from dry upland areas.
Development restrictions have taken the form of
the Falmouth Wetlands Protection Bylaw, which
limits development on lots deemed to contain, or be

4
near, environmental resources. Rules implementing
the Bylaw created: (1) a 100-foot “no disturbance zone”
extending inland from the salt marsh; and (2) a
separate 50-foot “no disturbance zone” extending
inland from certain coastal banks. The 1998 rules, in
place when Mrs. Smyth first acquired an interest in
the lot, applied only to “eroding” coastal banks, “not
just any coastal bank.” They also contained a
“flexibility” provision allowing the Commission to
waive the no-disturbance zone.
Falmouth revised the wetland regulations in 2008,
eliminating the “flexibility” provision and applying
the “no disturbance zone” to all coastal banks. These
changes meant that no permissible building area
existed on Mrs. Smyth’s lot except 115 square feet in
the northeast corner, an area too small to develop.
In 2012, Mrs. Smyth filed an application with the
Commission to construct a single-family residence.
Her application included a request for variances from
the Town’s “no disturbance zones” that would allow
her to use her land for a home like those on similar
lots. Despite Mrs. Smyth’s agreeing to reduce the size
of her home, making it about one-half the size of
neighboring homes, Falmouth decided that it would
strictly apply its “no disturbance zones,” and denied
her permit application and variance requests. The
denial meant the property could not be used for
anything except (maybe) a “playground,” “park,” or
neighbor’s yard. An appraiser testified that the result
was a decline in the lot’s value from $700,000 (as a
buildable lot) to $60,000—a 91.5% reduction in value.
Mrs. Smyth sued the Commission and Town in
state court, alleging in part that the denial of her

5
permit and variance requests amounted to a
regulatory taking under the U.S. Constitution. The
trial court denied Falmouth’s motion for summary
judgment, holding that disputed factual issues about
Mrs. Smyth’s “investment-backed expectations” and
her economic losses as a result of the permit denial
could only be determined by a jury. After reviewing
the case, the jury found that a taking had occurred
and awarded Mrs. Smyth $640,000 in damages—the
difference in assessed value of her lot as developable
versus not developable. Falmouth moved for judgment
notwithstanding the verdict but was denied.
On appeal, the Massachusetts Appeals Court held
that the trial court should have granted the Town’s
motion for judgment notwithstanding the verdict and
found that the permit and variance denial did not
constitute a taking. Applying Penn Central, it held
that Falmouth’s prohibition on building a home, and
the resulting 91.5% decline in Mrs. Smyth’s property
value was not a sufficient “economic impact” to
support a taking. According to the court, since Mrs.
Smyth’s lot could possibly still be used “as a park or a
playground” and because it may still be attractive to
neighboring landowners to purchase as a “privacy”
buffer, the property retained too much value to justify
a takings claim. In rejecting Mrs. Smyth’s claim of
“investment-backed expectations,” the court focused
on the “lack of any financial investment toward
development of the property, whether by the plaintiff
or her parents, at any time over more than thirty
years, including a substantial period within which it
could have been built upon.” Finally, the
Massachusetts Appeals Court held that the third
Penn Central factor, the “character of the

6
governmental action,” weighed against a taking
because the permit denial was not “like a physical
invasion” and derived from reasonable wetlands
regulations designed to mitigate perceived harm. The
Massachusetts Supreme Judicial Court declined to
take up Mrs. Smyth’s petition for further review.
This case presents this Court with an important
opportunity to clarify and recalibrate its regulatory
takings jurisprudence. In particular, the parties have
asked for clarification of the rule set forth in Penn
Central Transportation Co. v. City of New York, 438
U.S. 104, 124 (1978).
SUMMARY OF ARGUMENT
While Penn Central has been called the “polestar”
of American regulatory takings jurisprudence, see
Palazzolo v. Rhode Island, 533 U.S. 606, 633 (2001)
(O’Connor, J., concurring), this Court has issued
several decisions subsequent to Penn Central that
provide more detailed insight on how to apply the
Takings Clause in different factual circumstances.
Most relevant here, Lucas v. South Carolina Coastal
Council, 505 U.S. 1003 (1992), set forth the rule for
“total” or “categorical” regulatory takings, as
contrasted with Penn Central’s rule for “partial”
regulatory takings. This case is best understood not as
a partial taking, as the court below treated it, but as
a total taking under Lucas.
Penn Central’s ad-hoc balancing approach is inapt
here. The fact that the Court is being asked to
determine whether the elimination of 91.5% of
property value is sufficient to support a takings claim
is illustrative. The property is the only remaining
undeveloped lot in a residential neighborhood and has

7
always been taxed and assessed as suitable for
development as a residential lot.
Mrs. Smyth inherited the property from her
parents, who had planned to build a retirement home.
She and her husband planned to build a home of their
own, but the Conservation Commission refused to
allow any development whatsoever. Not only can Mrs.
Smyth not enjoy the home her husband had designed
for them to live in, but now the once valuable
property’s only remaining use to a potential purchaser
would be as a buffer for one of the lot’s neighbors or as
a “playground” (and it is unclear whether the
wetlands regulation at issue would even allow that
level of “disruption” to the lot’s “natural” state).
In cases where regulations have banned any
development of a property, a categorical taking has
occurred. See Lucas, 505 U.S. at 1014. To hold that
retaining the bare value of undeveloped (and
undevelopable) land is enough to frustrate a takings
claim is absurd. Such a rule destroys the concept of a
regulatory taking because property will almost always
retain at least some marginal value to someone. Such
a rule effectively renders Penn Central a nullity; its
test applies only when diminution of value is partial.
♦

8
ARGUMENT
REASONS FOR GRANTING THE PETITION
I.

LOWER COURTS HAVE MISAPPLIED
THIS COURT’S REGULATORY TAKINGS
JURISPRUDENCE
TO
DEPRIVE
PROPERTY
OWNERS
OF
JUST
COMPENSATION

“When the owner of real property has been called
upon to sacrifice all economically beneficial uses in the
name of the common good, that is to leave his property
economically idle, he has suffered a taking.” Lucas,
505 U.S. at 1019.
The reason this Petition is before the Court today
is because the Massachusetts Appeals Court has
decided that practically no taking short of physical
appropriation or full seizure of title requires just
compensation under the Fifth Amendment. The
Conservation Commission’s arbitrary decision to
forbid the construction of a single-family residence on
the only undeveloped lot in a single-family residential
community destroyed $640,000 of Janice Smyth’s
property’s resale value. But the Commission also stole
from Mrs. Smyth the opportunity of designing and
building her dream home on the land given to her by
her late parents, where she hoped to live and
eventually enjoy her retirement. This was made
possible because the Massachusetts Appeals Court,
like many courts, has badly misconstrued this Court’s
regulatory takings precedents to effectively nullify the
entire doctrine outside the most extreme fringe cases.

9
Mrs. Smyth’s case is unfortunately not an isolated
occurrence. Property owners are regularly denied the
just compensation due to them under the Constitution
because of errors in reasoning similar to those present
below, and this Court must take the opportunity
presented here to reverse this concerning trend.
Examples of this alarming trend include a case in
which Mark Miskowiec was denied any compensation
when local regulations prevented him from building a
home on his property, with the court holding that the
property remained economically viable because Mr.
Miskowiec could have used the property for “lake
access” or “general open space[] uses.” Miskowiec v.
City of Oak Grove, No. A04-82, 2004 WL 2521209 at
*5 (Minn. Ct. App. Nov. 9, 2004). Roberta Gove was
also denied any compensation for the injury she
suffered when the town of Chatham, Massachusetts
passed a bylaw prohibiting the construction of all new
residential buildings in the area and denied her a
building permit, destroying roughly 93% of the
property’s assessed value. Gove v. Zoning Bd. Of
Appeals of Chatham, 831 N.E.2d 865, 869, 872–73
(Mass. 2005). John Barth lost more than 97% of his
property’s value when the city prohibited him from
rebuilding the home that had once stood on the lot.
Barth v. City of Peabody, No. 15-13794, 2018 WL
1567606 at *2 (D. Mass. Mar. 30, 2018). The list goes
on. All these people were grievously harmed by
regulations that stopped the productive or enjoyable
use of their property, and by courts’ applying a flawed
interpretation of this Court’s precedent without
recognizing the absurdity of the results.
In a political climate where governments are
increasingly relying on regulatory measures that

10
usurp effective control over private property while
allowing owners to retain at least nominal title, see
John Mangin, The New Exclusionary Zoning, 25 STAN.
L. & POL’Y REV. 91, 100 (2014), it is more vital than
ever that this Court vigorously enforce the protections
provided by the Takings Clause.
II.

THIS CASE SHOULD BE ANALYZED AS A
TOTAL TAKING UNDER LUCAS

This case was decided below on Penn Central
grounds, and that is the way Mrs. Smyth has
understandably chosen to frame her petition here.
Accordingly, this Court has been asked only to clarify
the Penn Central standard. The state courts’ decision
to analyze the case as a partial taking under Penn
Central, however, was mistaken. In reality, Mrs.
Smyth suffered exactly the sort of total deprivation of
her property’s economically viable use that this Court
determined constitutes a total taking under Lucas,
and it is under that decision’s framework that the
present controversy should be analyzed.
A.

Total Takings Under Lucas.

In Lucas, this Court held that a local
environmental regulation, similar to the one at issue
here, which caused the total loss of any economically
viable use of an individual’s real property, constituted
a categorical taking requiring compensation under the
Fifth Amendment. 505 U.S. at 1031–32. Because the
regulation at issue operated effectively as a
condemnation of the property, the ad-hoc balancing
test set forth in Penn Central was unnecessary, and
the case could be disposed of in much the same way it
would have been had the government physically
appropriated the entire property.

11
David H. Lucas purchased two residential lots of
beachfront property on one of the barrier islands off
the South Carolina coast for $975,000. Id. at 1006–08.
He intended to build two single-family homes on the
lots. Id. at 1007. Two years later, the South Carolina
legislature passed a land use law “which had the
direct effect of barring petitioner from erecting any
permanent habitable structures on his two parcels.”
Id. Lucas challenged the law as a regulatory taking
for which he received no compensation, and a state
trial court agreed, awarding Lucas $1.2 million in just
compensation. Id. at 1009. The state supreme court
reversed, holding that, under the Penn Central
framework, the state’s asserted interests outweighed
those of Mr. Lucas. Lucas v. South Carolina Coastal
Council, 404 S.E. 2d 895, 901–02 (S.C. 1991).
The South Carolina Supreme Court rejected
Lucas’s argument that, “if a regulation operates to
deprive a landowner of ‘all economically viable use’ of
his property, it has worked a ‘taking’ for which
compensation is due, regardless of any other
consideration,” holding that the government’s interest
in protecting the environment outweighed Lucas’s
interest in using his property. Id. at 898. The court
then likened Lucas’s desire to construct a singlefamily home on his land to a nuisance causing “serious
public harm.” Id. at 900.
This Court reversed, taking the opportunity to
declare that when government regulations proscribe
all or nearly all development of an unimproved parcel
of land, a total, categorical taking has occurred,
obviating the need to engage in any of the ad-hoc
balancing of interests called for in Penn Central.
Lucas, 505 U.S. at 1015–18. Explaining that

12
“regulations that leave the owner of land without
economically beneficial or productive options for its
use—typically, as here, by requiring land to be left
substantially in its natural state—carry with them a
heightened risk that private property is being pressed
into some form of public service under the guise of
mitigating serious public harm,” this Court refused to
play Penn Central’s policy-weighing game. Id. at 1018.
“’[F]or what is the land but the profits thereof[?]’” Id.
at 1017 (quoting 1 E. COKE, INSTITUTES, ch. 1, § 1 (1st
Am. ed. 1812)). The right to exclude may be the most
prominent of the bundle of sticks that make up
property, but it is far from the only one; that Lucas
retained bare title to an unimproved lot didn’t change
the fact that, under most circumstances, the entire
point of owning land is to improve it.
Another important point about Lucas that often
goes unmentioned is that the Court’s use of the
concept of “value” does not exclusively refer to the sale
price (such a view would create a virtually impossibleto-meet standard in regulatory takings cases, as can
be seen in the decision below), but “has always been
inexorably tied to the ability to improve or develop
property.” See J. David Breemer, Of Nominal Value:
The Impact of Tahoe-Sierra on Lucas and the
Fundamental Right to Use Private Property, 33
ENVTL. L. REP. 10331, 10335 (2003). The Lucas Court
repeatedly emphasized the importance of landowners’
ability to improve their property, see 505 U.S. at 1031,
1025 n.12, and understood that “value” is “shorthand
for the presence or absence of uses in land, i.e., when
value means the value that arises from the ability to
build, farm, grow, or harvest timber.” Breemer, 33
ENVTL. L. REP. at 10335.

13
B. Application of Lucas to This Case
Lucas dealt with a factual scenario very similar to
the one here. Mrs. Smyth has been denied the
opportunity to build a home on an undeveloped lot she
owns within a coastal residential subdivision by local
environmental regulations. Both Mrs. Smyth and Mr.
Lucas acquired their properties with the good-faith
intention of constructing single-family homes as
would have been allowed under rules in place at the
time of acquisition, but were later informed that they
were forbidden from building on the lots. 2
The most important point of similarity is that,
contrary to what some lower courts have indicated,
the taking that the Lucas Court held was “total” was
Lucas’s loss of the right to reasonably enjoy his
property. While the Court assumed total loss because
that was the unchallenged finding of the lower court
in that case and did not inquire further as to whether
such a loss actually occurred, it is important to note
that the development restriction at issue in Lucas was
considered a total taking despite the fact that Lucas’s
property retained not insignificant value even in an
undevelopable state. See Calvert G. Chipchase, From
Grand Central to the Sierras: What Do We Do With
The Falmouth Wetlands Protection Bylaw preventing Mrs.
Smyth from developing her property was passed in 1998, prior to
Mrs. Smyth inheriting it, but was only amended to arguably
encompass Mrs. Smyth’s property within its “no disturbance
zone” in 2008. When Mrs. Smyth’s parents first acquired the
property in 1975, no local wetlands regulations were in effect. In
any event, the fact that the Wetlands Protection Bylaw pre-dates
Mrs. Smyth’s acquisition of her property does not negate her
reasonable investment-backed expectations. See Palazzolo, 533
U.S. at 627.
2

14
Investment-Backed Expectations in Partial Regulatory
Takings?, 23 VA. ENVTL. L.J. 43, 46 n.17 (2004); Lucas,
505 U.S. at 1009, 1038, 1044 (Blackmun, J.,
dissenting). Justice Blackmun noted that the
monetary value of Lucas’s property may have
exceeded one million dollars, that Lucas retained title,
and that Lucas retained the right to exclude others
and use the empty lot to “picnic, swim, camp in a tent
or live on the property in a moveable trailer.” Lucas,
505 U.S. at 1044 (Blackmun, J., dissenting).
This is why the Massachusetts Appeals Court’s
decision doesn’t make sense. That court’s holding that,
because Mrs. Smyth’s property retained some
marginal value as an empty lot that could be used “as
a park or a playground”—but would the bylaw
preventing Mrs. Smyth from building her home even
allow the construction of playground equipment?—
she had not suffered a sufficient economic impact to
support a claim for just compensation, cannot be
squared with Lucas. In Lucas, the Court stated that a
typical way in which a regulation may “leave the
owner of land without economically beneficial or
productive options for its use” is “by requiring land to
be left substantially in its natural state.” Id. at 1018.
And, against the objections of Justices Blackmun and
Stevens, the Lucas majority implicitly rejected the
argument that the ability to sell the land as open
space for some subset of the land’s developable value
defeated Lucas’s takings claim. See Breemer, 33
ENVTL. L. REP. at 10332. All real property retains
some marginal value regardless of the restrictions
placed upon it, and, as implicitly recognized in Lucas,
the retention of that marginal value should not throw
a case into ad-hoc Penn Central territory, let alone

15
frustrate a takings claim altogether. The reasoning
applied by the court below would render the
total/partial takings distinction a nullity, making a
mess of what little coherence the courts have managed
to develop around this issue.
The Court needs to establish that a regulation
proscribing practically all development of a given
property not only constitutes a compensable taking,
but constitutes a categorical, total taking under Lucas
that does not require courts to engage in the sort of
ad-hoc balancing inquiry called for in Penn Central.
♦
CONCLUSION
For the foregoing reasons, this Court should grant
the Petition.
Respectfully submitted,
Ilya Shapiro
Trevor Burrus
Cato Institute
1000 Mass. Ave. N.W.
Washington, D.C.
20001
(202) 842-0200
ishapiro@cato.org

Cristen Wohlgemuth
Counsel of Record
David C. McDonald
Mountain States Legal Foundation
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
dmcdonald@mslegal.org

